705 Second Avenue
Suite 1500
Seattle, Washington
98104-1745

Alec Bayless (1921-1991)
Francis Hoague (1909-1993)
Kenneth A. MacDonald (1917-2012)

English 206.622.1604
Español 206.694.1685
Fax 206.343.3961

April 19, 2021

Hon. Scott S. Harris
Clerk, Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re:

Miguel A. Bocanegra
Tiffany M. Cartwright
Katherine C. Chamberlain
Andrew T. Chan
Tess Douglas
Kirsten Eklund
Timothy K. Ford
Katrin E. Frank
Ester Greenfield
Elizabeth Poh
Mika Rothman
Joe Shaeffer
Rebecca Singleton
Rebecca Talbott
Jeffrey L. Taren
Jesse Wing
Lola S. Zakharova

Recovery Innovations Inc., et al. v. Rawson, No. 20-1287

Dear Mr. Harris:
I am writing pursuant to Rule 30.4 to ask for an extension of time to file the response to
the petition for certiorari in this case that has been requested by the Court.
The request was issued on April 12, 2021 and called for the response by May 12, 2021.
In this interim, and in the weeks following, my co-counsel and I have numerous previously
scheduled proceedings and previously set deadlines in other cases, many of which have been
backed up because of the pandemic. One of the two lawyers who have been with the case from
the beginning has joined a different firm out of state, and work is complicated by the fact that
both of our offices are operating remotely because of COVID-19 restrictions. Because of this,
we will require significantly more time than the order calls for to prepare and provide the Court
with an adequate response to the petition.
We therefore are asking that this deadline be extended by 60 days, to permit our response
to be filed by July 12, 2021 (as July 11 is a Sunday). We have contacted counsel for the
petitioner and are authorized to say that they do not oppose this request; and we do not believe it
will cause any prejudice to any party.
Respectfully,
MACDONALD HOAGUE & BAYLESS

Tim Ford
Timothy K. Ford

TKF:ch

11310.02 od191105

www.mhb.com

